[

p<

®huteb i£>tate£ Court of Sppeate
Jfor tl)t Ctgljtf) Circuit

No. 18-3660
United States of America
Plaintiff- Appellee
v.
Peter Terrell Redditt
Defendant - Appellant

Appeal from United States District Court
for the District of Minnesota

Submitted: February 10,2020
Filed: July 15,2020
[Published]

Before LOKEN, BENTON, and KELLY, Circuit Judges.

PER CURIAM.
Peter Terrell Redditt pleaded guilty to being a felon in possession of a firearm
in violation of 18 U.S.C. § 922(g)(1). Reddit has three prior Minnesota convictions
for first degree aggravated robbery. See Minn. Stat. § 609.245, subd. 1. In United
States v. Libby. 880 F.3d 1011, 1015-16 (8th Cir. 2018), we held that this crime is,
categorically, a violent felony under the “force clause” of the Armed Career Criminal

Appellate Case: 18-3660

Page: 1

Date Filed: 07/15/2020 Entry ID: 4933817

Act (“ACCA”).1 Consistent with Libby, the district court2 classified Redditt’s prior
convictions as ‘Violent felonies” and sentenced him to 180 months imprisonment, the
ACCA mandatoiy minimum prison sentence. See 18 U.S.C. § 924(e)(1). Reddit
appeals, arguing his Minnesota aggravated robbery convictions are no longer ACCA
violent felonies in light of the Supreme Court’s decision in Stokeling v. United States,
139 S. Ct. 544 (2019), issued after his sentencing.
In United States v. Jackson-Bev. No. 18-3545 (8th Cir. July 7, 2020), we
recently rejected this identical argument, concluding it was foreclosed by two decisions
issued while Redditf s appeal was pending. In Taylor v. United States, 926 F.3d 939,
942 (8th Cir. 2019), we held that “Stokeling reinforced -- and certainly did not cast
doubt on — our decision in Pettis3 that a prior Minnesota conviction for the crime of
simple robbery is a ‘violent felony’ under the ACCA’s force clause.” Based on Taylor,
we held in United States v. Robinson 925 F.3d 997,998-99 (8th Cir. 2019), that first
degree aggravated robbery remains a violent felony after Stokeling because its offense
conduct includes simple robbery. As Jackson-Bev is binding on our panel, we must
affirm.
The prior conviction at issue in Jackson-Bev was the Minnesota offense of
simple robbery -- taking personal property from another person while using or
threatening the imminent use of force to overcome the person’s resistance or to compel
‘The force or elements clause states: “(B) the term ‘violent felony’ means any
crime punishable by imprisonment for a term exceeding one year... that (i) has as an
element the use, attempted use, or threatened use of physical force against the person
of another.” 18 U.S.C. § 924(e)(2)(B)(i).
2The Honorable David S. Doty, United States District Judge for the District of
Minnesota.
3United States v. Pettis, 888 F.3d 962,966 (8th Cir. 2018), cert, denied, 139 S.
Ct. 1258(2019).
-2-

Appellate Case: 18-3660

Page: 2

Date Filed: 07/15/2020 Entry ID: 4933817
•r''

acquiescence in the taking. Minn. Stat. § 609.24. We concluded that Stokeling did not
overrule or undermine our prior decisions in Libby and Pettis that this offense is,
categorically, a violent felony under the ACCA’s force clause. After we issued our
decisions in Taylor and Robinson, Redditt moved for leave to file a pro se
supplemental brief arguing that even if the Minnesota offense of simple robbery is a
violent felony under the ACCA’s force clause, first degree aggravated robbery is not
because it can be committed by being armed without using force. As this is a variation
of the argument presented by counsel, we grant the motion for leave to file. However,
we conclude that this argument, too, is foreclosed by our prior decisions.
A person commits Minnesota first degree aggravated robbery if he, “while
committing a robbery, is armed with a dangerous weapon ... or inflicts bodily harm
upon another.” Minn. Stat. § 609.245, subd. 1. Redditt argues that, because the
statute defines first degree aggravated robbery as “robbery” with a weapon, not “simple
robbery” with a weapon, simple robbery is not a lesser included offense of first degree
aggravated robbery. But in Libby, we held that simple robbery is a lesser included
offense of first degree aggravated robbery, 880 F.3d at 1013, and we noted that
“[njeither party disputes that the elements, as defined in both Minn. Stat. § 609.245,
subd. 1 and Minn. Stat. § 609.24, present an indivisible offense.” 880 F.3d at 1015.
In Robinson, we confirmed, post-Stokeling, that first degree aggravated robbery “is
defined as simple robbery committed while armed with a dangerous weapon.” 925
F.3d at 998-99 (quotation omitted). Thus, binding circuit precedent establishes that
Minnesota first degree aggravated robbery is an indivisible offense that includes the
lesser included offense of simple robbery. Thus, it is, categorically, a violent felony
under the ACCA.
The judgment of the district court is affirmed.

-3-

Appellate Case: 18-3660

Page: 3

Date Filed: 07/15/2020 Entry ID: 4933817

<1

i

%

UNITED STATES COURT OF APPEALS
FOR THE EIGHTH CIRCUIT

No: 18-3660
United States of America
Plaintiff - Appellee
v.
Peter Terrell Redditt
Defendant - Appellant
Appeal from U.S. District Court for the District of Minnesota
(0:18-cr-00113-DSD-l)
JUDGMENT
Before LOKEN, BENTON, and KELLY, Circuit Judges.
This appeal from the United States District Court was submitted on the record of the
district court and briefs of the parties.
After consideration, it is hereby ordered and adjudged that the judgment of the district
court in this cause is affirmed in accordance with the opinion of this Court.
July 15,2020

Order Entered in Accordance with Opinion:
Clerk, U.S. Court of Appeals, Eighth Circuit.
/s/ Michael E. Gans

Appellate Case: 18-3660

Page: 1

Date Filed: 07/15/2020 Entry ID: 4933820

